              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report

Management of the Federal Energy
Regulatory Commission's Information
Technology Program




DOE/IG-0652                             June 2004
                                                 2

The effectiveness of the Commission's system development activities could have been improved
by developing an enterprise architecture, implementing a capital planning and investment control
process, and by thoroughly applying project management techniques. Absent such tools,
management lacked information needed to determine what systems and features were required
for mission accomplishment, could not adequately evaluate progress to completion, or could not
effectively determine the necessary total system investment. Without improvement, the
Commission risks incurring unnecessary costs for systems that face premature obsolescence
because they do not meet user needs or satisfy mission requirements.

MANAGEMENT REACTION

Management generally concurred with the intent of the report's recommendations, but believed
that the report did not address the critical issues or actions that the Commission faced in the past
two years in the management of its IT systems. Rather, management felt that many of the issues
raised in the report had already been identified in an independent study commissioned two years
ago.

We examined the impact of the Commission's 2002 independent study, the goal of which was to
evaluate IT management practices. To its credit, as a result of the study, the Commission
reorganized the Chief Information Officer's office, and refocused its IT related efforts by
reducing support staff by 50 percent, contracting for needed expertise, and reducing overall costs
by about $5 million. During our audit, the Commission also finalized its Capital Planning and
Investment Control Guide and its System Development Life Cycle Guide. Further, in its
FY 2005 budget request, the Commission included a performance goal to complete an enterprise
architecture by October 2004.

The Commission's efforts to improve its IT program are noteworthy and, if fully implemented,
should provide a structured process for evaluating, selecting, developing, and overseeing projects
in the future. However, based on our audit of current projects ongoing since completion of the
independent study, we concluded that additional action is necessary to enhance software
development practices. To that end, we have made several recommendations designed to
improve effectiveness of IT management at the Commission.

Management's comments are summarized beginning on page 4 of the report and are included in
their entirety as Appendix 3.

Attachment

cc:    Executive Director, Federal Energy Regulatory Commission
       Chief of Staff, Department of Energy
       Chief Information Officer, Department of Energy
REPORT ON MANAGEMENT OF THE FEDERAL ENERGY
REGULATORY COMMISSION'S INFORMATION
TECHNOLOGY PROGRAM




TABLE OF
CONTENTS



              Systems Planning and Development

              Details of Finding............................................................. 1

              Recommendations .......................................................... 3

              Comments ....................................................................... 4


              Appendices

              1. Objective, Scope, and Methodology .......................... 7

              2. Prior Reports.............................................................. 8

              3. Management Comments............................................ 9
SYSTEMS PLANNING AND DEVELOPMENT
______________________________________________________________________
Development Activities The Federal Energy Regulatory Commission's (Commission)
                       critical eGovernment development efforts suffered from
                       incomplete project cost estimates, schedule slippages or faced
                       premature obsolescence.

                                                     FERC Online

                          Our review of the FERC Online project disclosed that certain
                          modules had missed target dates or significantly underestimated
                          project costs. The FERC Online project, initiated in May 2002,
                          consolidated projects -- some of which had been ongoing since
                          1998 -- to satisfy the requirements of the Government Paperwork
                          Elimination Act. The Act established October 2003 as the
                          deadline for meeting its requirements. Of the six FERC Online
                          modules with significant development underway, we determined
                          that four did not meet their initial targeted implementation dates.
                          FERC Online is currently not scheduled to be fully implemented
                          until Fiscal Year (FY) 2007 at a total cost of about $31 million.
                          When complete, its nine individual system development modules
                          should provide a web-based, integrated system for managing
                          public and internal documents and information.

                          While the eLibrary initiative (a component of the FERC Online
                          project) was delayed due to situations beyond the Commission's
                          control, we noted that management made its decision to initiate
                          that module without a complete cost estimate. Consequently,
                          officials did not consider nearly $4.4 million in various costs such
                          as disaster recovery planning and document conversion when
                          deciding to go forward.

                          FERC Administrative Management Information System (FAMIS)

                          We also observed that, after only three years of operation, the
                          Commission decided to replace FAMIS, one of its major systems.
                          FAMIS was developed and implemented in 1999 to address
                          Year 2000 remediation concerns and to provide document tracking
                          and workload management functions. It is being replaced because
                          it does not meet user needs and is not used extensively. Despite an
                          investment of $11 million, an internal study noted that the system
                          was underutilized because it had poorly designed interface screens
                          and suffered from slow response times. In 2002, management
                          concluded that the system was not meeting user needs and decided
                          to phase it out. Efforts are now underway to replace FAMIS with
                          several other systems being developed under the FERC Online
                          initiative.



______________________________________________________________________
Page 1                                                 Details of Finding
______________________________________________________________________

Systems Development   The Commission had not developed organization-wide policies to
Policies              guide information technology (IT) acquisitions and development
                      efforts. Although required by the Clinger-Cohen Act of 1996 and
                      Office of Management and Budget (OMB) implementing
                      guidance, the Commission had not prepared an enterprise
                      architecture to integrate business processes and organizational
                      goals with IT. While it planned to complete an architecture and
                      had established a related FY 2003 performance goal, the
                      Commission did not meet its goal.

                      Absent policies to guide its efforts, many of the Commission's
                      development projects were initiated without performing needed
                      planning, capital budgeting, and business process reengineering
                      studies. Specifically, we noted that key planning studies such as
                      feasibility, cost-benefit, and return on investment analyses were
                      never completed for a number of the FERC Online modules.
                      Cyber related actions such as risk assessments and security
                      planning had also not been performed to ensure that each of the
                      modules operated securely. We also observed that the soon to be
                      phased-out FAMIS project largely automated a number of
                      inefficient manual processes and was undertaken without business
                      process reengineering.

                      In addition, the Commission had not always applied project
                      management techniques for IT investments. The Commission had
                      not fully implemented a structured system development
                      methodology to manage its systems development projects although
                      it had approved the methodology in September 2002. As noted in
                      Federal guidance, a structured methodology can help ensure that
                      projects meet their goals by providing a structured series of
                      development steps. In particular, we found that project cost and
                      schedule baselines, information essential for executive oversight,
                      had not been prepared prior to beginning development for six of
                      the nine FERC Online modules, including the eLibrary module.
                      Management thus lacked information needed to determine what
                      systems and features were required for mission accomplishment,
                      could not adequately evaluate progress to completion, or determine
                      the total system investment necessary.


Cost and              The Commission's goal to strategically manage resources through
Implementation        secure and efficient eGovernment initiatives and through effective
Schedule              workflow systems may be unattainable without improvement. It
                      risks incurring unnecessary costs for systems that face premature



______________________________________________________________________
Page 2                                                 Details of Finding
_____________________________________________________________________
                          obsolescence because they do not meet users' needs or satisfy
                          mission requirements. Overall, the Commission's system
                          developments are at risk of failing to meet the objectives of the
                          President's Management Agenda for expanding electronic
                          Government and the Commission's goal to strategically manage
                          agency resources.


Ongoing Improvements The Commission has made improvements in managing its IT
In Managing IT       activities. Specifically, we noted that it had drafted an initial
Activities           Enterprise Architecture which management hopes to issue by
                     October 2004; issued a Capital Planning and Investment Control
                     Process guide in April 2004; and had begun to implement a
                     systems development methodology for new projects. Management
                     also told us that it had initiated the use of Earned Value
                     Management to determine if an IT development project is cost
                     effective. Additionally, the Commission had focused training
                     resources on project management, submitted IT-related
                     performance measures to OMB along with their business cases for
                     major systems, drafted a Continuity of Operations Plan, and
                     updated a Disaster Recovery Plan for mission critical systems.

                          While the above actions are noteworthy, additional actions are
                          necessary to ensure that key processes are fully implemented to
                          ensure that IT initiatives are properly managed to help meet user
                          and mission needs. For instance, the Commission had not
                          reviewed its ongoing projects to determine to what extent its
                          system development methodology could be applied. At the time of
                          our review, only two of the FERC Online modules had
                          documented risk assessments and none had a security plan. Also,
                          the Commission had not established project cost baselines for three
                          of the modules.


RECOMMENDATIONS           Although the Commission had made improvements in its systems
                          development activities, further steps need to be taken to improve
                          the management of its IT resources. To that extent, we
                          recommend that the Executive Director:

                          1. Complete the development of and implement an enterprise-
                             wide architecture to provide a roadmap to guide and direct
                             acquisitions and development efforts;




______________________________________________________________________
Page 3                                                Recommendations
_____________________________________________________________________
                     2. Ensure the full implementation of the capital planning and
                        investment control process for prioritizing, selecting, and
                        managing investments and ensuring that they are aligned with
                        the agency's strategic plan and mission;
                     3. Ensure the full implementation of appropriate project
                        management techniques to new projects by applying a system
                        development methodology that provides a structured approach
                        for designing and developing new information systems; and,
                     4. Review ongoing development projects and, where appropriate,
                        ensure that critical development steps are applied to help
                        ensure their efficient and timely completion.

MANAGEMENT           Management generally concurred with the intent of the report's
REACTION             recommendations, but believed that the report did not address the
                     critical issues or actions that the Commission faced in the past two
                     years in the management of its IT systems. Rather, management
                     felt the report covered projects initiated prior to improvements
                     made to its system development methodology and repeated many
                     of the issues that had already been identified in an independent
                     study. The study's results prompted a reorganization of the
                     Commission's Office of the Chief Information Officer resulting in
                     the use of appropriate management techniques and significant
                     improvements in operations.
                     Management indicated that the Commission is on schedule to meet
                     target dates for FERC Online and that our report used initial rough
                     order of magnitude estimates in concluding that target dates were
                     not met. With regard to the eLibrary module of FERC Online,
                     management stated that our analysis of project cost estimates
                     incorrectly included costs not associated with development.
                     Management clarified at the exit conference, that at least some
                     portion of these costs were related to conversion of archived
                     records and were, therefore, optional. Management also stated that
                     planning documents were missing for only small projects that were
                     part of FERC Online.
                     With regard to FAMIS, management stated that the system is
                     meeting mission needs and is expected to have a life-cycle greater
                     than five years which is comparable to industry standards.

AUDITOR COMMENTS     Management's comments are partially responsive to our
                     recommendations. Our review included the vast majority of the
                     active projects in the Commission's system development portfolio,
                     many of which were initiated prior to 2003. Our review of these
                     projects included a determination of whether the Commission had

_________________________________________________________________
Page 4                                                  Comments
_____________________________________________________________________
                     made changes to the projects as a result of improvements it was
                     making to its systems development methodology. Although an
                     independent study performed in 2002 did highlight many of the
                     same problems that we identified, the fact that the Commission had
                     still not developed an enterprise architecture or fully implemented
                     a capital planning and investment control process system and a
                     system development methodology nearly two years later
                     demonstrate problems in implementing needed corrective actions.
                     While we agree that management was proactive in performing the
                     systems study, more needs to be done to ensure that development
                     problems are addressed in a timely manner. As we have noted in
                     our report, the Commission has taken a number of positive
                     corrective actions.

                     We do not concur with a number of management's assertions
                     regarding the effectiveness of its systems development activities.
                     Regarding management's statement that it is on target for meeting
                     FERC Online target dates, we found that four of six modules with
                     significant development underway did not meet their initial target
                     implementation dates, including the statutory October 2003
                     deadline for implementing the requirements of the Government
                     Paperwork Elimination Act. The target dates management is
                     currently using to guide the project were revised in 2003 in order
                     to present realistic implementation dates in response to the Office
                     of Management and Budget's information technology budget call
                     for FY 2005. Based on current estimates, however, FERC Online
                     is not expected to be fully implemented until FY 2007.

                     Also, we do not agree with the Commission's position that costs
                     for disaster recovery planning and data conversion activities should
                     not have been considered in its decision to proceed with eLibrary.
                     Regardless of the timing of these costs, they should have been
                     considered by the Commission in its decision to proceed with the
                     eLibrary initiative as required by Office of Management and
                     Budget circulars.

                     In addition, we do not agree with management's assertion that
                     planning documents for FERC Online were missing for only small
                     projects. Specifically, we found that planning documents such as
                     risk assessments, security plans, and cost and schedule baselines
                     were missing for major modules of FERC Online, most of which
                     have incurred actual development costs in excess of $1 million to
                     date.




_________________________________________________________________
Page 5                                                  Comments
_____________________________________________________________________
                     Regarding management's assertion that FAMIS is meeting its
                     mission needs, we found that the Commission's own study showed
                     that FAMIS had been underutilized from implementation because
                     of user dissatisfaction. The same study determined that FAMIS
                     did not meet one of its main reengineering requirements,
                     automated workload management, which was a primary mission
                     need.

                     Where appropriate, we have incorporated management's technical
                     comments in the body of this report. Management's comments are
                     included in their entirety in Appendix 3.




_________________________________________________________________
Page 6                                                  Comments
Appendix 1

OBJECTIVE     To determine whether the Federal Energy Regulatory Commission
              (Commission) had efficiently and effectively managed its system-
              related investments.


SCOPE         The audit was performed between April 2003 and May 2004 at the
              Federal Energy Regulatory Commission in Washington, DC.
              Specifically, we performed a comprehensive review of the
              agency's key processes for managing information technology
              resources.


METHODOLOGY   To accomplish our objective, we:

              •   Reviewed applicable laws, regulations, guidance and best
                  practices pertaining to managing information technology
                  resources and initiatives. We also reviewed relevant reports
                  issued by the Office of Inspector General and the General
                  Accounting Office;

              •   Reviewed the Government Performance and Results Act of
                  1993 and determined if performance measures had been
                  established for managing information technology resources;

              •   Reviewed numerous documents related to the Commission's
                  management of information technology resources, including
                  system development project documentation; and,

              •   Held discussions with program officials and personnel from the
                  Commission.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objectives.
              Accordingly, we assessed internal controls regarding the
              management of the Commission's information technology
              program. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have
              existed at the time of our audit. We did not rely on computer-
              processed data to accomplish our audit objective.

              An exit conference was held with Commission officials on
              June 24, 2004.




Page 7                                   Objective, Scope, and Methodology
Appendix 2

                                      PRIOR REPORTS


•   Evaluation of The Federal Energy Regulatory Commission's Cyber Security Program-2003
    (OAS-L-03-21; September 2003). During the evaluation of the Commission's unclassified
    cyber security program, we found that significant progress was made in resolving
    weaknesses reported during the 2002 evaluation. However, plans for maintaining or
    resuming critical operations in the event of an emergency or disaster had not been completed.

•   Evaluation Report: The Federal Energy Regulatory Commission's Unclassified Cyber
    Security Program 2002 (DOE/IG-0569; September 2002). The evaluation of the
    Commission's unclassified cyber security program found that while a number of protective
    measures had been implemented, certain critical information systems remained at risk.
    Cyber protection efforts suffered from program management, planning, and execution
    weaknesses.

•   Special Report: The Department of Energy's Implementation of the Clinger-Cohen Act of
    1996 (DOE/IG-0507; June 2001). The report stated that while the Department had taken
    action to address certain information technology related management problems, it had not
    been completely successful in implementing the requirements of the Clinger-Cohen Act of
    1996. Specifically, the Department had not satisfied major requirements of the Act to
    develop and implement an integrated, enterprise-wide, information technology architecture;
    closely monitor policy implementation efforts; and acquire information technology related
    assets in an effective and efficient manner.

•   Information Technology: A Framework for Assessing and Improving Enterprise Architecture
    Management (Version 1.1) (GAO-03-584G; April 2003). In this report, GAO stated that the
    importance of developing, implementing, and maintaining an enterprise architecture is a
    basic tenet of both organizational transformation and information technology management.
    Managed properly, an enterprise architecture could clarify and help optimize the
    interdependencies and relationships among an organization's business operations and the
    underlying information technology infrastructure and applications that support these
    operations. Further, when employed in concert with other important management controls,
    such as portfolio-based capital planning and investment control practices, architectures can
    greatly increase the chances that organizations' operational and information technology
    environments will be configured so as to optimize mission performance.




Page 8                                                                           Prior Reports
Appendix 3




Page 9       Management Comments
Appendix 3




Page 10      Management Comments
Appendix 3




Page 11      Management Comments
Appendix 3




Page 12      Management Comments
Appendix 3




Page 13      Management Comments
                                                                    IG Report No. DOE/IG-0652

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
